HHS/OIG, Audit -"Review of the Services Related to the Placement of Arterial Stents,"(A-06-04-00091)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Services Related to the Placement of Arterial Stents," (A-06-04-00091)
August 5, 2005
Complete
Text of Report is available in PDF format (148 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
>Our audit objective was to determine
whether 72 paid Medicare claims for outpatient stent placement services provided in calendar year
2002 were reasonable, necessary, and allowable under Medicare rules; supported by adequate documentation;
and properly coded.  The Program Safeguard Contractor found that a total of 20 claims from 15
providers did not meet Medicare reimbursement of requirements and, as a result, were overpaid by
a total of $35,291.  These errors may have occurred because the providers did not have procedures
in place to ensure that the services for which they billed met Medicare requirements.  In addition,
the providers may need additional education covering proper billing practices for stent services.  We
recommended that TrailBlazer recover the $35,291 in overpayments and provide education to these providers
to ensure that the claims they submit for reimbursement meet Medicares requirements.  TrailBlazer
generally agreed with our findings and recommendations, stating that it had recovered the overpayments
based on our recommendations.